No. 21-12
IN THE SUPREME COURT OF THE UNITED STATES
_________________
FEDERAL ELECTION COMMISSION, APPELLANT
v.
TED CRUZ FOR SENATE, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE FEDERAL ELECTION COMMISSION IN OPPOSITION TO
MOTION OF APPELLEES TO AFFIRM OR DISMISS, via email and first-class mail,
postage prepaid, this 25th day of August, 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 2921
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
August 25, 2021.

Brian H. Fletcher
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
August 25, 2021

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

21-0012
FEDERAL ELECTION COMMISSION
TED CRUZ FOR SENATE, ET AL.

CHARLES JUSTIN COOPER
COOPER & KIRK PLLC
1523 NEW HAMPSHIRE AVENUE, N.W.
WASHINGTON, DC 20036
202-220-9600
CCOOPER@COOPERKIRK.COM
DONALD A. DAUGHERTY, JR.
THE INSTITUTE FOR FREE SPEECH
1150 CONNECTICUT AVENUE, NW
SUITE 801
WASHINGTON, DC 20036
202-301-9500
DDAUGHERTY@IFS.ORG
202-301-3399(Fax)
CHRIS GOBER
THE GOBER GROUP PLLC
PO BOX 341016
AUSTIN, TX 78734
512-354-1787
CG@GOBERGROUP.COM
PAUL M. SMITH
THE CAMPAIGN LEGAL CENTER
1101 14TH ST. NW
SUITE 400
WASHINGTON, DC 20005
202-736-2200
PSMITH@CAMPAIGNLEGAL.ORG

